Helgi C. Walker
Direct: +1 202.887.3599
Fax: +1 202.530.9595
HWalker@gibsondunn.com

November 17, 2020
VIA ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Federal Communications Commission, et al. v. Prometheus Radio Project,
et al., No. 19-1231
National Association of Broadcasters, et al. v. Prometheus Radio Project, et
al., No. 19-1241

Dear Mr. Harris,
I am counsel of record for the National Association of Broadcasters in the
above-captioned cases. I write on behalf of Petitioners National Association of
Broadcasters, Bonneville International Corporation, Connoisseur Media LLC, Fox
Corporation, News Corporation, News Media Alliance, Nexstar Inc., The Scranton
Times L.P., and Sinclair Broadcast Group, Inc. (“Industry Petitioners”). Industry
Petitioners hereby consent to the timely filing of amicus curiae briefs by any
person, entity, or organization supporting either party or in support of neither
party in these cases, provided that the amicus curiae brief otherwise complies
with the Rules of this Court.
Respectfully submitted,

s/ Helgi C. Walker
Helgi C. Walker

cc:

Jeffrey B. Wall
Counsel for United States
Ruthanne Mary Deutsch
Counsel for Prometheus Radio Project, et al.

November 17, 2020
Page 2

Jack N. Goodman
Counsel for Independent Television Group
Dennis Lane
Counsel for Multicultural Media, Telecom and Internet Council, et al.
David Edward Mills
Counsel for Gray Television, Inc.
Andrew Jay Schwartzman
Counsel for Benton Institute for Broadband & Society, et al.

